           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
     RESPONSE TO STATE FURLOUGHS
  IMPACTING ITS DISABILITY PROGRAMS

       March 2011   A-01-11-11116




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 22, 2011                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Response to State Furloughs Impacting its
           Disability Programs (A-01-11-11116)


           OBJECTIVE
           The objective of our review was to assess the Social Security Administration’s (SSA)
           efforts to address State furloughs and their effect on the Agency’s disability programs.

           BACKGROUND
           To address budget deficits, some States have taken actions that affect SSA’s disability
           programs. 1 For example, some States have implemented furloughs or hiring freezes for
           State employees—including staff in the disability determination services (DDS), which
           are 100-percent funded by SSA. 2 (See Appendix B for additional information about
           DDS funding.)




           1
             SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI) payments to eligible
           individuals under the Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and
           1381 et seq. Once an application is filed, an SSA field office determines whether the individual meets the
           non-disability criteria for benefits. For DI benefits, the non-disability criteria include such factors as
           sufficient earnings. 20 C.F.R. §§ 404.130 through 404.133 and 20 C.F.R. § 404.315. For SSI payments,
           the non-disability criteria include such factors as citizenship, low income, and resources.
           20 C.F.R. §§ 416.202 and 416.110 through 416.1266. The SSA field office generally forwards a claim to
           the DDS in the State or other office with jurisdiction to determine whether the individual is disabled under
           the Agency’s criteria.
           2
            DDSs are in each of the 50 States plus the District of Columbia and Puerto Rico. At the DDS, a
           disability examiner, using SSA’s regulations, policies, and procedures, obtains the relevant medical
           evidence and then, working with a physician and/or a psychologist, evaluates the case and determines
           whether the claimant is disabled under the Agency’s criteria. The Social Security Act §§ 221 (a)(2) and
           1633 (a), 42 U.S.C. §§ 421 (a)(2) and 1383b(a). See also 20 C.F.R. §§ 404.1601 et seq. and
           416.1001 et seq.
Page 2 - The Commissioner


Federal regulations state, “Subject to appropriate Federal funding, the State will, to the
best of its ability, facilitate the processing of disability claims by avoiding personnel
freezes, restrictions against overtime work, or curtailment of facilities or activities.” 3

Our March 2009 report, Impact of State Employee Furloughs on the Social Security
Administration’s Disability Programs (A-01-09-29137), stated that furloughs of DDS
employees would affect SSA’s ability to process the disability workload. Working with
SSA, we compiled a list of options for addressing the effect of DDS furloughs.
(See Table 1.)

In our November 2009 report, Impact of State Budget Issues on the Social Security
Administration’s Disability Programs (A-01-10-11006), we estimated that millions of
dollars in benefit payments to newly disabled claimants would be delayed because of
furloughs.

To perform this review, we researched the effect of furloughs on SSA’s disability
programs, contacted SSA officials and staff to obtain information on the Agency’s
response to furloughs, and reviewed data related to DDS workloads in Fiscal Years
(FY) 2008 through 2011. (See Appendix C for additional information on our scope and
methodology.)

The results presented in this report are a snapshot of SSA’s response to State furloughs
as of January and February 2011.

RESULTS OF REVIEW
We found that SSA had been proactive in addressing State furloughs affecting its
disability programs. The Agency implemented all the options from our
March 2009 report that did not require legislative changes (see Table 1). Despite SSA’s
efforts, some States continued to furlough DDS employees—resulting in delayed
benefits to disabled claimants and the loss of administrative funding to those States. As
of January 2011, SSA had

•     contacted State officials to deter DDS furloughs;
•     expanded adjudicative capacity; and
•     transferred over 167,000 disability cases to other offices to assist DDSs that
      furloughed employees.




3
    20 C.F.R. §§ 404.1621(d) and 416.1021(d).
Page 3 - The Commissioner


           Table 1: Status of SSA’s Options for Addressing DDS Furloughs

       Options for Addressing DDS Furloughs                                 SSA’s Efforts
    Work with States to exempt DDS employees from                 Contacted State officials to deter
    furloughs.                                                    DDS furloughs.
    Allow current SSA employees who worked as
    disability examiners in a DDS or Disability Quality
    Branch (DQB) to work disability claims on overtime
    (in regions or Headquarters).
                                                                  Expanded adjudicative capacity
    Hire retired DDS and DQB disability examiners as
                                                                  to continue processing disability
    rehired annuitants on contract (in regions or
                                                                  claims.
    Headquarters).
    Work with furloughing States to allow DDS
    employees to work more hours on non-furlough
    days.
    Transfer work to Federal disability examiners (in
                                                                  Transferred cases from
    regions or Headquarters).
                                                                  furloughing DDSs to continue
    Transfer work to other State DDSs not furloughing.            processing disability claims.

    Contract disability claims to private companies.              May require legislative changes.

    Take over State DDS operations (Federalize the
                                                                  Requires legislative changes.
    DDSs).

SSA’s EFFORTS TO DETER STATES FROM FURLOUGHING DDS EMPLOYEES

Because DDS employees are federally funded, furloughs do not save the States money.
Rather, furloughing DDS employees delays benefit payments to some of the most
vulnerable citizens. In addition, furloughs result in States losing administrative funding
for adjudicating disability claims, including DDS employees’ salaries and benefits.
These States also lost income tax revenue that would have been paid from these
salaries. 4

SSA reported that Agency officials made educational outreach efforts to Federal and
State lawmakers about the economic effect of furloughs on state DDS employees and
the disabled waiting for disability determinations. These efforts aided in gaining
furlough exemptions or partial exemptions in Maryland, New York, and Colorado. To
deter furloughs, SSA officials took several actions.

For instance, SSA’s Commissioner wrote letters to every State governor and spoke with
State officials about the effects of furloughing DDS employees. In addition, several of

4
 SSA, News Release: Social Security Proposes Legislation to End Furloughs of Federally Paid State
Disability Workers, July 23, 2010, available at http://www.ba.ssa.gov/pressoffice/pr/furlough-legislation-
pr.htm.
Page 4 - The Commissioner


SSA’s Regional Commissioners wrote letters to governors, lawmakers, and DDS parent
agency heads to deter DDS furloughs. Furthermore, the Vice President wrote to the
National Governors Association to exempt federally funded DDS employees from any
furloughs, hiring restrictions, or other budget cuts.

Additionally, in July 2010, the Commissioner announced the Agency’s intention to
introduce legislation prohibiting States from enacting furloughs or freezes of DDS
employees without authorization from the Commissioner. 5

In October 2010, SSA released the Interactive Furlough Impact Map available at
www.socialsecurity.gov/furloughs. The map shows the location, status, and effect of
DDS furloughs nationally and by State. SSA created the map to educate lawmakers,
advocates, and disability organizations about the effects of DDS furloughs.

Despite SSA’s efforts, some States continued to furlough DDS employees. As of
February 1, 2011, 10 States were furloughing DDS employees (see map below). 6

                     DDS Furlough Status by State as of February 2011 7




                                           DDS Furloughed
                                           No Furlough



SSA estimated that, as of February 2011, furloughing of DDS employees had delayed
over $33 million in disability benefit payments for more than 121,000 households.

5
    As of November 2010, SSA had drafted legislation and was looking for congressional sponsors.
6
    As of February 21, 2011, the District of Columbia was furloughing DDS employees.
7
 As of February 2011, Puerto Rico and Guam (not appearing on the map) were not furloughing DDS
employees.
Page 5 - The Commissioner


Additionally, SSA estimated that furloughs caused these States to lose over $65 million
in administrative funding. 8

For example, Hawaii implemented a 42-day furlough of DDS employees from
July 1, 2009 through June 30, 2011. SSA estimated that, as of February 2011, Hawaii’s
furloughing of DDS employees delayed about $536,000 in disability payments for more
than 1,400 households. Additionally, SSA estimated that the State lost over
$948,000 in administrative funding. (See Table D-1 in Appendix D for more information
on the effect of State DDS furloughs.)

SSA’s EFFORTS TO CONTINUE PROCESSING DISABILITY CLAIMS

In addition to furloughs, the DDSs continue to face an increase in initial disability claims.
As a result, SSA expanded adjudicative capacity and transferred DDS workloads.
Specifically, SSA established Extended Service Teams (EST) and increased Federal
units and DDS staff. As of January 2011, the Agency had transferred over
167,000 cases from furloughing DDSs for processing. 9 (See Chart D-1 in Appendix D
for more details on the increase of initial disability claims receipts.)

Expanded Adjudicative Capacity

In FY 2010, SSA established ESTs in four States with a history of high quality and
productivity as well as the capacity to hire and train additional employees. 10
Additionally, the Agency increased staff in the already-established Federal units. 11
ESTs and Federal units assist States with processing initial disability claims, including
those in furloughed States. Along with the ESTs and Federal units, the New York and
Dallas Offices of Quality Performance began assisting DDSs with reconsideration
claims.

In FYs 2009 and 2010, SSA used American Recovery and Reinvestment Act of
2009 (ARRA) funds.12 During this period, the DDSs added about 2,900 employees.



8
    Information provided by SSA’s furlough Website at http://www.socialsecurity.gov/open/ODD/.
9
  We have an ongoing review of SSA’s plans to reduce the initial claims backlog to an optimum pending
level: SSA’s Plan for Reducing the Initial Claims Backlog (A-07-10-10162).
10
  ESTs are located in Little Rock, Arkansas; Madison, Mississippi; Oklahoma City, Oklahoma; and
Roanoke, Virginia.
11
  Federal units include the Disability Processing Branches and Disability Processing Units in each of
SSA’s 10 regions plus the Offices of Central Operations and Medical and Vocational Expertise at SSA
Headquarters in Baltimore.
12
 We issued a report in December 2009, Disability Determination Services’ Staffing Under the American
Recovery and Reinvestment Act (A-07-09-29156).
Page 6 - The Commissioner


Nationally, the attrition rate in DDSs has remained steady over the past several years. 13
Therefore, these additional hires have increased the overall staffing levels in the DDSs.
Furthermore, in FYs 2009 and 2010, funding allowed for increased levels of overtime.
DDSs in both furloughed and non-furloughed States were able to use overtime to
increase adjudicative capacity.

Transferred Cases from Furloughing DDSs

SSA reported over 167,000 cases were transferred from furloughing DDSs to ESTs,
Federal units, and DDSs that were not furloughing. As a result, the Agency mitigated
the delays in case processing caused by DDS furloughs.

For example, Wisconsin implemented a 16-day furlough of DDS employees from
October 1, 2009 to June 30, 2011. As of January 2011, SSA had redirected over
14,000 disability cases from Wisconsin to the Baltimore and Chicago Federal units.

       Table 2: Cases Transferred from Furloughing DDSs as of January 2011
                   Number of
      DDS 14         Cases                    Cases Transferred To
                  Transferred
Arizona                     8,558         San Francisco Federal unit
                                          Arkansas and Oklahoma ESTs; San Francisco, Baltimore,
California                 43,958
                                          and Dallas Federal units; and Idaho DDS
Connecticut*                1,244         Boston Federal unit
Hawaii                        642         San Francisco Federal unit
Maine                       1,960         Baltimore Federal unit
                                          Arkansas and Virginia ESTs, Philadelphia Federal unit, and
Maryland*                  25,925
                                          West Virginia DDS
Massachusetts*              1,591         Virginia EST
Michigan*                   9,808         Chicago and Baltimore Federal units, and Indiana DDS
Nevada                      2,834         San Francisco Federal unit
New Jersey*                23,147         New York Federal unit
New Mexico*                 1,081         Dallas Federal unit and Arkansas DDS
Ohio                       15,279         Chicago and Baltimore Federal units
Oregon                      1,093         Seattle Federal unit and Idaho DDS
Rhode Island                7,861         Boston Federal unit and Maine DDS
                                          Virginia EST, Philadelphia and Baltimore Federal units, and
Virginia*                   7,803
                                          District of Columbia DDS
Wisconsin                  14,754         Chicago and Baltimore Federal units
 TOTAL                  167,538
     *As of February 2011, these States were no longer furloughing DDS employees.


13
  The national attrition rate for the DDSs was 10.5 percent in FY 2008, 9.2 percent in FY 2009, and
10.6 percent in FY 2010.
14
  Although Iowa, Kentucky, and Nebraska furloughed DDS employees, as of February 2011, no cases
had been transferred from these DDSs.
Page 7 - The Commissioner


OTHER OPTIONS

SSA explored other options to address the effect of State furloughs, such as contracting
with private companies and federalizing the State DDSs. However, these options would
likely involve legislative changes, as the Social Security Act, in effect, requires that most
disability determinations be processed by State DDSs. 15 Additionally, SSA estimated
that federalizing the State DDSs would be more costly than the current framework—
costing approximately $4 billion over the first 4 years. 16

CONCLUSION
We found that SSA had been proactive in addressing State furloughs affecting its
disability programs—as the Agency put into action several options from our March 2009
report. Specifically, SSA reached out to State officials and succeeded in gaining
furlough exemptions or partial exemptions in several States. The Agency also
expanded adjudicative capacity and transferred over 167,000 disability cases from
furloughing DDSs for processing. These furloughs resulted in delayed benefits to
disabled claimants and the loss of administrative funding to States. Therefore, we
encourage SSA to continue its efforts to deter DDS furloughs and provide resources for
processing disability claims.

AGENCY COMMENTS
SSA thanked us for acknowledging its attempts to mitigate the impact of State furloughs
in the DDSs. See Appendix E.




                                               Patrick P. O’Carroll, Jr.




15
  The Social Security Act §§ 221 (a)(2) and 1633 (a), 42 U.S.C. §§ 421 (a)(2) and 1383b(a). See also
20 C.F.R. §§ 404.1503, 416.903, 404.1601 et seq., and 416.1001 et seq.
16
  Field Hearing – Improving Social Security Disability Insurance Claim Processing In Ohio: Hearing
Before S. Committee on Homeland Security and Governmental Affairs, Subcommittee on Oversight of
                                                                                   th
Government Management, the Federal Workforce, and the District of Columbia, 111 Cong.
(November 15, 2010) (Questions and answers following testimony of Michael J. Astrue, Commissioner of
Social Security).
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Disability Determination Services Funding

APPENDIX C – Scope and Methodology

APPENDIX D – Effect of State Disability Determination Services Furloughs and Initial
             Disability Claims Receipts

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ARRA          American Recovery and Reinvestment Act of 2009
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
DQB           Disability Quality Branch
EST           Extended Service Team
FY            Fiscal Year
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                                    Appendix B

Disability Determination Services Funding
The Social Security Administration (SSA) implements policies for developing disability
claims under the Disability Insurance (DI) and Supplemental Security Income (SSI)
programs. The DI program provides benefits to wage earners and their families in the
event of disability. 1 The SSI program provides benefits to financially needy individuals
who are aged, blind, or disabled. 2 Additionally, States have the option of supplementing
their residents' SSI payments and may choose to have the additional payments
administered by SSA. 3

Disability determinations under both the DI and SSI programs are performed by
disability determination services (DDS) in each State or other responsible jurisdiction in
accordance with the Social Security Act and Federal regulations.4 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. 5 The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payment system to pay for program
expenditures. Funds drawn down must comply with Federal regulations 6 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 7 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87. At the end of each quarter of the Fiscal Year, each DDS
submits a Form SSA-4513, State Agency Report of Obligations for SSA Disability
Programs, to account for program disbursements and any unliquidated obligations.

1
    The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
    The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
3
    The Social Security Act § 1616(b)(2) et seq., 42 U.S.C. § 1382e(b)(2).
4
 The Social Security Act §§ 221(a)(2) and 1633(a), 42 U.S.C. §§ 421(a)(2) and 1383b(a). See also
20 C.F.R. §§ 404.1603(a) and 416.1003(a).
5
  The Social Security Act §§ 221(e) and 1633(a), 42 U.S.C. §§ 421(e) and 1383b(a). See also
20 C.F.R §§ 404.1626 and 416.1026. Expenditures include direct and indirect costs. Direct costs can be
identified specifically with a particular cost objective. Indirect costs arise from activities that benefit
multiple programs but are not readily assignable to these programs without effort disproportionate to the
results achieved. (Office of Management and Budget Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, Attachment A, §§ E.1 and F.1.)
6
    31 C.F.R. § 205.1 et seq.
7
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act; the Social Security
    Administration’s (SSA) regulations, policies, and procedures; and other applicable
    Federal laws and regulations.

•   Researched prior reports issued by the Office of the Inspector General.

•   Researched published reports and articles on SSA’s efforts to address State
    furloughs affecting its disability programs.

•   Reviewed disability determination services workload statistics for Fiscal Years 2008
    through 2011.

•   Contacted SSA officials and staff to obtain information on SSA’s disability programs
    and the Agency’s response to State furloughs affecting these programs.

We performed our review between October and March 2011 in Boston, Massachusetts.
The entity audited was SSA’s Office of Disability Determinations under the Office of the
Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                                                                                     Appendix D

Effect of State Disability Determination Services
Furloughs and Initial Disability Claims Receipts
While the Social Security Administration (SSA) experienced a surge in initial disability
claims, State furloughs affected the Agency’s ability to process those claims. As of
February 2011, SSA estimated that furloughing of disability determination services
(DDS) employees delayed over $33 million in disability benefit payments for more than
121,000 households. Additionally, SSA estimated that furloughs caused these States to
lose over $65 million in administrative funding. 1 See Chart D-1 for the increase in initial
disability claims by quarter and Table D-1 for SSA’s furlough estimates. 2


Chart D-1: Fiscal Year (FY) 2008 Through 2010 - Initial Disability Claims Receipts

       1,000,000
         800,000
         600,000
         400,000
         200,000
                0
                         Quarter 1           Quarter 2               Quarter 3           Quarter 4

           Initial Receipts FY 2008       Initial Receipts FY 2009          Initial Receipts FY 2010




1
    Information provided by SSA furlough Website at http://www.socialsecurity.gov/open/ODD/.
2
 FYs 2008 through 2010 initial disability claims receipts include data from the DDSs, Extended Service
Teams, and the Federal units.


                                                   D-1
  Table D-1: Effect of DDS Furloughs Through February 2011
                       Number of           Benefits Delayed
                                                                     Administrative
     DDS              Households             to Disabled
                                                                     Funding Lost
                        Affected              Claimants
Arizona                         1,196              $284,640                   $576,924
California                     87,604            $24,447,336               $48,210,512
Connecticut*                    1,083              $271,016                   $577,081
Hawaii                          1,496              $535,670                   $948,328
Iowa*                             338                $83,463                  $206,513
Kentucky                        1,214              $275,703                   $519,482
Maine                             382                $92,191                  $155,255
Maryland*                         859              $251,826                   $169,867
Massachusetts*                    454              $151,407                   $230,385
Michigan*                       2,233              $602,271                 $1,366,268
Nebraska*                          11                 $3,208                    $5,704
Nevada                            905              $264,226                   $480,736
New Jersey*                     3,259             $1,158,976                $2,141,458
New Mexico*                       649              $172,194                   $285,445
Ohio                           13,211             $3,093,604                $6,002,609
Oregon                          2,148              $626,024                 $1,127,304
Rhode Island                      583              $153,109                   $271,105
Virginia*                         383              $111,478                   $177,008
Wisconsin                       3,559             $1,031,867                $1,549,784
TOTAL                         121,567            $33,610,209               $65,001,768
      *As of February 2011, these States were no longer furloughing DDS employees.




                                          D-2
                                                                                Appendix E

  Agency Comments




                                   SOCIAL SECURITY

MEMORANDUM


Date:      March 8, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “SSA’s Response to State
           Furloughs Impacting Its Disability Programs” (A-01-11-11116)—INFORMATION

           Thank you for acknowledging our attempts to mitigate the impact of State furloughs in
           the disability determination services. We have no other comments on your report.

           Please let me know if I may be of any assistance. You may direct staff inquiries to
           Chris Molander, at extension 57401.
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-11-11116.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
